March 8, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Ohio Medicaid Costs for Home Blood-Glucose Test Strips Could Be Reduced by
                Approximately 50 Percent (A-05-11-00098)


Attached, for your information, is an advance copy of our final report on Ohio’s Medicaid costs
for home blood-glucose test strips. We will issue this report to the Ohio Department of Job and
Family Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Sheri L. Fulcher, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or
through email at Sheri.Fulcher@oig.hhs.gov. Please refer to report number A-05-11-00098.


Attachment
                                                               O FFICE OF A UDIT S ERVICES , R EGION V
                                                                   233 N ORTH M ICHIGAN , S UITE 1360
                                                                                  C HICAGO , IL 60601
March 13, 2012

Report Number: A-05-11-00098

Mr. Michael B. Colbert
Director
Ohio Department of Job and Family Services
30 East Broad Street
Columbus, OH 43215

Dear Mr. Colbert:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Ohio Medicaid Costs for Home Blood-Glucose Test Strips
Could Be Reduced by Approximately 50 Percent. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Mike Barton, Audit Manager, at (614) 469-2543 or through email at Mike.Barton@oig.hhs.gov.
Please refer to report number A-05-11-00098 in all correspondence.

                                             Sincerely,



                                             /Sheri L. Fulcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael B. Colbert


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




    OHIO MEDICAID COSTS FOR
   HOME BLOOD-GLUCOSE TEST
  STRIPS COULD BE REDUCED BY
   APPROXIMATELY 50 PERCENT




                       Daniel R. Levinson
                        Inspector General

                          March 2012
                         A-05-11-00098
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Ohio, the Department of Job and
Family Services (State agency) administers the Medicaid program. During the period July 1,
2010, through June 30, 2011, the State agency reimbursed providers more than $16 million for
home blood-glucose test strips (test strips).

Pursuant to Ohio Administrative Code 5101:3-9-02, the State agency provides for eligible
pharmacies in the Ohio Medicaid program to bill for medical supplies, including test strips.
Pursuant to Ohio Administrative Code 5101:3-1-60, the State agency reimburses providers the
lesser of the submitted charge or the calculated allowable amount. The payment is determined in
accordance with Federal and State laws and regulations.

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers test
strips that physicians prescribe for diabetics. The amount allowed for payment of test strips is
generally equal to the lesser of the Medicare fee schedule amount or the amount charged by a
supplier.

Pursuant to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR § 431.51(d)
and 42 CFR § 431.54(d), the Medicaid agency may establish special procedures for the purchase
of medical devices through a competitive bidding process or otherwise, if the State assures and
CMS finds that adequate services or devices are available to recipients under the special
procedures.

Congress enacted legislation to establish a Medicare competitive acquisition program
(competitive bidding) under which prices for selected medical supplies, including mail-order test
strips, sold in specified competitive bidding areas (CBA) would be determined by suppliers’ bids
rather than a fee schedule. The first round of bidding closed in December 2009, and competitive
bidding was operational as of January 2011 in nine metropolitan areas, including two in Ohio.

The Indiana Medicaid program recently obtained a waiver from CMS to implement a selective
contracting program for test strips under the exemptions permitted in section 1915(a)(1)(B) of
the Act and requirements established in 42 CFR § 431.51(d) and 42 CFR § 431.54(d). The
selective contracting program was structured to obtain manufacturer rebates on test strips and
reduce State expenditures.




                                                i
OBJECTIVE

Our objective was to determine whether the Ohio Medicaid program could achieve savings for
diabetic test strips.

SUMMARY OF FINDINGS

The Ohio Medicaid program could have achieved savings of approximately $8 million for the
period July 1, 2010, through June 30, 2011 (State fiscal year 2011), for test strips by establishing
a competitive bidding program or through the use of manufacturer rebates. We determined that
Medicare payment rates obtained for mail-order test strips through competitive bids in two Ohio
CBAs and Medicaid payment rates that the Indiana Medicaid program obtained through
manufacturer rebates were significantly lower than the Ohio Medicaid maximum reimbursement
rate. The average Medicare payment rate for a 50-pack of test strips from the 2 Ohio CBAs in
2011 was $15.42, the net cost after rebate in Indiana was $17.72 and $14.70, and the Ohio
Medicaid maximum reimbursement rate was $35.00. Establishing a competitive bidding mail-
order program similar to the Medicare program or using manufacturer rebates could result in an
approximately 50-percent reduction in the cost of test strips.

RECOMMENDATIONS

We recommend that the Ohio State agency:

   •   establish a competitive bidding program similar to Medicare for the purchase of test
       strips under the Ohio Medicaid program or

   •   develop a Request for Proposal to obtain manufacturer rebates on test strip purchases and

   •   implement competitive bidding or use manufacturer rebates, which could have saved
       approximately $8 million in State fiscal year 2011 alone.

STATE AGENCY COMMENTS

Although the State agency did not expressly concur with our recommendations in its written
comments on our draft report, the actions that it described are compatible with those
recommendations. The State agency chose to develop a Request for Proposal to obtain
manufacturer rebates on diabetic supplies. The Request for Proposal is in a draft format and is
under review by the Medicaid Director. The State agency’s comments are included in their
entirety as the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Federal and State Requirements.....................................................................1
              Competitive Bidding ......................................................................................1
              Manufacturer Rebates ....................................................................................1
              Ohio Department of Job and Family Services ...............................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          MEDICARE COMPETITIVE BIDDING PROGRAM ............................................3

          MANUFACTURER REBATES ................................................................................4

          POTENTIAL SAVINGS FOR THE OHIO MEDICAID PROGRAM .....................4

          RECOMMENDATIONS ...........................................................................................6

          STATE AGENCY COMMENTS ..............................................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Federal and State Requirements

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers test
strips that physicians prescribe for diabetics. The amount allowed for payment of home blood-
glucose test strips (test strips) is generally equal to the lesser of the Medicare fee schedule
amount or the amount charged by a supplier.

Pursuant to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR § 431.51(d)
and 42 CFR § 431.54(d), the Medicaid agency may establish special procedures for the purchase
of medical devices through a competitive bidding process or otherwise, if the State assures, in
the certification required under section 431.51(d), and CMS finds that adequate services or
devices are available to beneficiaries under the special procedures.

Competitive Bidding

Congress enacted legislation to establish a Medicare competitive acquisition program
(competitive bidding) under which prices for selected medical supplies, including mail-order test
strips, sold in specified competitive bidding areas (CBA) would be determined by suppliers’ bids
rather than a fee schedule. The first round of bidding closed in December 2009, and competitive
bidding was operational as of January 2011 in nine metropolitan areas, including two in Ohio.

Manufacturer Rebates

The Indiana Medicaid program recently obtained a waiver from CMS to implement a selective
contracting program for test strips under the exemptions permitted in section 1915(a)(1)(B) of
the Act and requirements established in 42 CFR § 431.51(d) and 42 CFR § 431.54(d). The
selective contracting program was structured to obtain manufacturer rebates on test strips and
reduce State expenditures.

Ohio Department of Job and Family Services

Pursuant to Ohio Administrative Code 5101:3-9-02, the Ohio Department of Job and Family
Services (State agency) provides for eligible pharmacies in the Ohio Medicaid program to bill for
medical supplies, including test strips.


                                                1
Pursuant to Ohio Administrative Code 5101:3-1-60, the State agency reimburses providers the
lesser of the submitted charge or the calculated allowable amount. The calculated allowable
amount is determined in accordance with Federal and State laws and regulations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Ohio Medicaid program could achieve savings for
diabetic test strips.

Scope

Our audit included Medicaid payments for test strips for the period July 1, 2010, through
June 30, 2011 (State fiscal year (SFY) 2011). We limited our review to paid claims that were
reimbursed at Ohio’s Medicaid maximum reimbursement rate of $0.70 per unit, which
represented 85 percent of all test strip claims for the audit period.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the State agency’s test strip pricing and
reimbursement policies.

We performed our fieldwork in Columbus, Ohio, in August 2011.

Methodology

To accomplish our audit objective, we:

   •    identified Ohio Medicare CBAs and their payment rates;

   •    identified negotiated manufacturer test strip rebates in Indiana;

   •    obtained and reviewed a list of Ohio Medicaid payments for test strips for SFY 2011;

   •    determined the number of payments that were reimbursed at Ohio’s Medicaid maximum
        reimbursement rate of $0.70 per unit;

   •    based on the payments determined above, calculated the amounts that the State agency
        would have paid under the CBA payment rate and under a rebate program similar to the
        Indiana program; and

   •    determined the approximate amount of cost savings that Ohio could save by comparing
        the amount that the State agency reimbursed providers with the amount calculated under
        the Medicare CBA payment rate and through manufacturer rebates.


                                                  2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Ohio Medicaid program could have achieved savings of approximately $8 million for
SFY 2011 for test strips by establishing a competitive bidding program or through the use of
manufacturer rebates. We determined that Medicare payment rates obtained for mail-order test
strips through competitive bids in two Ohio CBAs and Medicaid payment rates that the Indiana
Medicaid program obtained through manufacturer rebates were significantly lower than the Ohio
Medicaid maximum reimbursement rate. The average Medicare payment rate for a 50-pack of
test strips from the 2 Ohio CBAs in 2011 was $15.42, the net cost after rebate in Indiana was
$17.72 and $14.70, and the Ohio Medicaid maximum reimbursement rate was $35.00.
Establishing a competitive bidding mail-order program similar to the Medicare program or using
manufacturer rebates could result in an approximately 50-percent reduction in the cost of test
strips.

MEDICARE COMPETITIVE BIDDING PROGRAM

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers test
strips that physicians prescribe for diabetics. The amount allowed for payment of test strips is
generally equal to the lesser of the Medicare fee schedule amount or the amount charged by a
supplier.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 mandated the
Medicare competitive bidding program. The program set lower payment amounts for medical
supply items, including mail-order test strips, while ensuring continued access to quality items
and services. The intended result was to reduce beneficiary out-of-pocket expenses and create
savings for taxpayers and the Medicare program. The Ohio Medicaid program currently does
not have a mail-order program for test strips.

As of January 1, 2011, test strips were provided in nine CBAs, including two in Ohio. Table 1
details the Medicare payment rates for a pack of 50 test strips.

    Table 1: Calendar Year 2011 Competitive Bidding Area Medicare Payment Rates

                         Cincinnati-        Cleveland-
       Competitive                                           Ohio CBA         Average of
                         Middletown,      Elyria-Mentor,
       Bidding Area                                           Average         Nine CBAs
                         OH-KY-IN               OH

      Payment per
                            $15.22            $15.62           $15.42            $14.62
      50 Test Strips


                                                3
Competitive bidding is a tool to reduce the costs of test strips and ensure that high-quality health
care products and services are available to beneficiaries.

MANUFACTURER REBATES

The Indiana Medicaid program recently obtained a waiver from CMS to implement a selective
contracting program for test strips under the exemptions permitted in section 1915(a)(1)(B) of
the Act and requirements established in 42 CFR § 431.51(d) and 42 CFR § 431.54(d). The
selective contracting program is structured to obtain manufacturer rebates on test strips and
reduce State expenditures while maintaining access to products for Medicaid beneficiaries. The
Indiana Medicaid program solicited proposals from manufacturers of test strips through a
Request for Proposal procurement process. The winning proposals provided the largest rebates
to the State for the purchase of test strips. Medicaid beneficiaries obtain the contracted test strips
from providers enrolled in the Indiana Medicaid program. Test strips not listed under the
selective contracting program can be purchased after obtaining prior authorization based on
medical necessity. The selective contracting program resulted in rebates of approximately
50 percent of the amounts reimbursed to Indiana Medicaid providers.

POTENTIAL SAVINGS FOR THE OHIO MEDICAID PROGRAM

Significant cost savings can be achieved through competitive bidding or through the use of
manufacturer rebates. We determined that Medicare payment rates obtained for mail-order test
strips through competitive bids in two Ohio CBAs and Medicaid payment rates that the Indiana
Medicaid program obtained through manufacturer rebates were significantly lower than the Ohio
Medicaid maximum reimbursement rate. The average Medicare payment rate for a 50-pack of
test strips from the two Ohio CBAs in 2011 was $15.42, the net cost after rebate in Indiana was
$17.72 and $14.70, and the Ohio Medicaid maximum reimbursement rate was $35.00. 1 The
State agency reimbursed providers $16.3 million for 23.3 million test strip units at the Medicaid
maximum reimbursement rate during the audit period SFY 2011.

Based on our review of Medicaid paid claims for test strips, current Ohio Medicare CBA
payment rates, and net Indiana Medicaid payment rates, savings of approximately $8 million
may have been achievable for the Ohio Medicaid program in SFY 2011. Establishing a
competitive bidding mail-order program similar to the Medicare program or using manufacturer
rebates could result in an approximately 50-percent reduction in the cost of test strips.




1
 Ohio’s Medicaid maximum reimbursement rate of $0.70 per unit multiplied by 50 units equals $35. Indiana’s net
unit cost of $0.3544 and $0.294 per unit multiplied by 50 units equals $17.72 and $14.70, respectively.


                                                       4
Table 2 details the potential cost savings achievable through a reduction in the Medicaid
maximum reimbursement rate to amounts available under the Ohio Medicare CBA program.

    Table 2: Potential Cost Savings Through Reduction in Ohio Medicaid Payment Rate

                                                              Ohio Medicare
                                                                                        Potential Cost
                                      Ohio Medicaid          CBA (Average of
                                                                                           Savings
                                                               Two CBAs)
        Reimbursement rate
                                            $0.70                   $0.31 2                   $0.39
            (per unit)

            Total amount
                                        $16,311,393               $7,186,334               $9,125,059
       (per 23,301,990 units)

Table 3 details the potential cost savings achievable through the use of manufacturer rebates.

                Table 3: Potential Cost Savings Through Manufacturer Rebates


                                                             Indiana Medicaid           Potential Cost
                                      Ohio Medicaid
                                                               (After Rebate)              Savings

        Reimbursement rate
                                            $0.70                  $0.3544 3                $0.3456
            (per unit)

            Total amount
                                        $16,311,393               $8,258,225               $8,053,168
       (per 23,301,990 units)




2
  We divided the average rate of the 2 CBAs in Ohio by 50 units for comparison to Ohio’s Medicaid maximum
reimbursement rate of $0.70 per unit.
3
  Reimbursement rate reflects the net cost after the manufacturer rebate payable to the Indiana Medicaid program on
covered products dispensed by enrolled pharmacies and/or durable medical equipment providers. Indiana has two
rebate agreements in calendar year 2011, providing net unit costs of $0.3544 and $0.294. We conservatively used
the higher net unit cost of $0.3544.

                                                        5
RECOMMENDATIONS

We recommend that the Ohio State agency:

   •   establish a competitive bidding program similar to Medicare for the purchase of test
       strips under the Ohio Medicaid program or

   •   develop a Request for Proposal to obtain manufacturer rebates on test strip purchases and

    • implement competitive bidding or use manufacturer rebates, which could have saved
      approximately $8 million in SFY 2011 alone.

STATE AGENCY COMMENTS

Although the State agency did not expressly concur with our recommendations in its written
comments on our draft report, the actions that it described are compatible with those
recommendations. The State agency chose to develop a Request for Proposal to obtain
manufacturer rebates on diabetic supplies. The Request for Proposal is in a draft format and is
under review by the Medicaid Director. The State agency’s comments are included in their
entirety as the Appendix.




                                                6
APPENDIX
                                                                                             Page 1 of2
                    APPENDIX: STATE AGENCY COMMENTS



Ohio                 Department of
                     Job and Family Services
                     John R. Kasich, Governor 

                     Michael B. Colbert, Director 




February 1,2012


Sheri L. Fulcher, Regional Inspector General for Audit Services
Office of Audit Services Region V
233 North Michigan Ave
Suite 1360
Chicago, IL 60601

Report Number: A-05-11-00098

Dear Ms. Fulcher:

As requested in the OIG/OAS report listed above, please accept this letter as the State of
Ohio's response to the Ohio Medicaid Costs for Home Blood-Glucose Test Strips draft
report A-05-11-00098. Please include our official response as part of the final report as
attachment A.

Please contact Christina Helm at 614-466-8364 or Christina.Helm@jfs.ohio.gov should
you have any questions.


Sincerely,



 c;I~~
Eric Mency, Acting Chief Fiscal Officer
Ohio Department of Job and Family Services

Cc: Michael B. Colbert, Director, ODJFS
   John McCarthy, Director, Office of Ohio Health Plans, ODJFS
    Cynthia Callender-Dungey, COO, Office of Ohio Health Plans, ODJFS




                                       30 East Broad Street
                                      Columbus, Ohio 43215
                                           jfs.ohio.gov

                    An Equal Opportunity Employer and Service Provider
                                                                                                    Page 2 of2

                                                              Attachment A
               Ohio Department of Job and Family Service (ODJFS)
 Response to OIG Ohio Medicaid Costs for Home Blood-Glucose Test Strips Draft Report
                                  A-OS-II-00098

OIG Recommendations:
Establish a competitive bidding program similar to Medicare for the purchase of test strips under
the Ohio Medicaid program or develop a Request for Proposal to obtain manufacturer rebates on
test strip purchases, and implement competitive bidding or use manufacturer rebates, which could
have saved approximately $8 million in State fiscal year 2011 alone.

ODJFS Response:
The state's biennial budget established the requirement that the Director of Job and Family
Service implement purchasing strategies to reduce Medicaid expenditures. One measure that
was included was selective contracting. Given that blood glucose test strips are currently billed
as part of the pharmacy benefit, Ohio chose to develop a Request for Proposal (RFP) to obtain
manufacturer rebates on diabetic supplies including injection and testing. The RFP is in a draft
format and is under review by the Medicaid Director.
